   April 29, 2004




Acquisition
Summary Report on the Military
Departments’ Transition of Advanced
Technology Programs to Military
Applications
(D-2004-078)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFRL                  Air Force Research Laboratory
ATD                   Advanced Technology Demonstration
CE                    Critical Experiment
FNC                   Future Naval Capability
IPT                   Integrated Product Team
S&T                   Science and Technology
TRL                   Technology Readiness Level
         Office of the Inspector General of the Department of Defense
Report No. D-2004-078                                                     April 29, 2004
  (Project No. D2003AB-0121)

            The Military Departments’ Transition of Advanced
              Technology Programs to Military Applications

                                Executive Summary

Who Should Read This Report and Why? Science and technology officials in the
Office of the Secretary of Defense and the Military Departments should read this report
because it evaluates the DoD process for increasing the likelihood that emerging
technology would more quickly transition to the warfighter for use.

Background. Congress and DoD officials voiced concern that technology has not
quickly transitioned to the warfighter. In response, DoD issued advisory guidance that
recommended best practices be adopted to enhance technology transition, and the
Military Departments made process changes to improve coordination.

Results. The Military Departments’ research organizations have not fully adopted the
best practices suggested by the Office of the Secretary of Defense for advanced
technology development-funded projects. Also, the performance appraisal process for
science and technology personnel did not sufficiently address technology transitioning as
a performance element. In addition, the financial guidance on using advanced
technology development funds does not emphasize technology transitioning. As a result,
advanced technology development-funded projects were not sufficiently coordinated to
ensure that successful technology would transition to the next development or acquisition
stage.

The Director, Defense Research and Engineering should require that best practice
procedures be followed to ensure coordination between the science and technology and
the communities that acquire the technology for the warfighter to use. The goal of
achieving transition also needs to be appropriately measured in science and technology
managers’ performance plans. In addition, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer should revise the definition for using advanced
technology development funds in the DoD Financial Management Regulation to
emphasize technology transitioning. (See the Finding section of the report for the
detailed recommendations.)

Management Comments. The Deputy Under Secretary of Defense for Advanced
Systems and Concepts provided comments for the Director, Defense Research and
Engineering. The Deputy Under Secretary nonconcurred with the recommendations.
The Deputy Under Secretary stated that advanced technology development projects do
not necessarily lead to subsequent development or procurement because the technology
projects may not mature enough to pursue. The Deputy Under Secretary stated that
advanced technology development still needs to be conducted to compare and contrast
competing technologies before committing to an acquisition program. Requiring an
acquisition commitment will lead to fewer systems being evaluated, increased risk, and
less optimal solutions. The Deputy Under Secretary concluded that existing guidance
encourages the focus of technology on the ultimate procurement objectives as soon as
possible and, therefore, the existing guidance is sufficient to achieve that objective.

The Deputy Comptroller, Office of the Under Secretary of Defense (Program/Budget)
concurred with the recommendation to revise the definition for advanced technology
development funds in the DoD Financial Management Regulation. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

Audit Response. Management comments provided by the Deputy Under Secretary of
Defense for Advanced Systems and Concepts were nonresponsive to the report and did
not address the recommendations. The report focuses on the management process for
coordinating advanced technology development projects between the science and
technology community and the planned acquisition community so that technology
projects that use advanced development funds (budget activity three) have a goal of
transitioning some or all technology into the acquisition process within the Future Years
Defense Program. Otherwise those projects should be replaced with more viable
candidates. Having a management process that requires goals for technology
transitioning, integrated product teams, memorandums of understanding for technology
development, and funding to transition the technology as it matures increases the
likelihood that some or all technology will transition more quickly to the warfighter for
use. We request that the Deputy Under Secretary of Defense for Advanced Systems and
Concepts provide additional comments on the final report by May 28, 2004.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objective                                                                   3

Finding
     Transitioning of Advanced Technology Development Projects              4

Appendixes
     A. Scope and Methodology                                               13
         Prior Coverage                                                     13
     B Advanced Technology Guidance Background                              15
     C. Technology Readiness Levels and Their Definitions                   17
     D. Summary of Audit Results in Prior Audits of the Military
          Departments’ Advanced Technology Programs                         18
     E. Report Distribution                                                 21

Management Comments
     Under Secretary of Defense (Program/Budget)                            23
     Under Secretary of Defense for Acquisition, Technology and Logistics   24
Background
    Defense Acquisition Guidance. The Deputy Secretary of Defense issued DoD
    Directive 5000.1, “The Defense Acquisition System,” on May 12, 2003. The
    directive states that science and technology (S&T) programs shall address user
    needs; maintain a broad-based program spanning all Defense-related sciences and
    technologies to anticipate future needs and those not being pursued by civil or
    commercial communities; preserve long-range research; and enable rapid,
    successful transition from S&T programs to useful military products. The
    directive goes on to state that advanced technology shall be integrated into
    producible systems and deployed in the shortest time practical. In addition,
    coordination through teaming among warfighters, users, developers, acquirers,
    technology experts, industry, testers, budgeting officials, and system maintainers
    should begin during the requirements definition phase.

    Science and Technology Guidance. In 1999, the DoD S&T Affordability Task
    Force chartered by the Director for Defense Research and Engineering issued a
    Handbook and, in 2001, the Deputy Under Secretary of Defense for Science and
    Technology issued a Guide to the Military Departments and Defense agencies
    that contained best practices which, if instituted, would assist in transitioning
    technology. In 2003, the Under Secretary of Defense for Acquisition,
    Technology, and Logistics issued a Manager’s Guide that reemphasized the
    technology management issues cited in the Handbook and the Guide. In addition,
    in response to congressional concerns that DoD had not been successful in
    transitioning technology, the Under Secretary of Defense for Acquisition,
    Technology, and Logistics issued advisory guidance to the Military Departments
    and Defense agencies and a report to Congress identifying why technology was
    not transitioning. See Appendix B for more details on the S&T guidance issued
    and the recommended best practices.

    Director, Defense Research and Engineering. The Director, Defense Research
    and Engineering is the principal advisor and assistant to the Under Secretary of
    Defense for Acquisition, Technology, and Logistics on all matters associated with
    science and technology. As principal advisor, he provides direction on the DoD
    S&T Program; establishes vision, strategies, and priorities; and oversees program
    management, execution, and output. In this capacity, he directs the Military
    Departments and Defense agencies on all S&T activities that are supported by
    funds for basic research, applied research, and advanced technology development.
    The Director, Office of Technology Transition, who assists the Director, Defense
    Research and Engineering in executing the DoD S&T Program, is responsible for
    formulating policies and establishing and managing programs that transition
    advanced technologies from research and development to weapon systems in an
    affordable manner.

    Army S&T Process. The Army Science and Technology Master Plan presents
    the S&T investments that are required to achieve the Army vision of transforming
    its force’s capabilities to dominate the full spectrum of operations. The Army
    vision is to create an Objective Force capable of deploying a combat brigade in
    96 hours, a combat division in 120 hours, and five combat divisions in 30 days to
    anywhere in the world. The Army S&T projects were reshaped to speed


                                        1
development of technologies necessary to achieve the Army’s transformation
vision. The transformation path from today’s force to the future Objective Force
includes incorporating technologies into existing and developing systems. The
Army funded about 260 advanced technology projects or tasks from FYs 1999
through 2001 to develop capabilities for military applications. The Army funding
for advanced technology development in FY 2003 was $1.04 billion.

Navy Future Naval Capabilities Process. In 1998, the Vice Chief of Naval
Operations instituted the Future Naval Capabilities (FNCs) process to focus the
S&T investment on achieving future capabilities for Naval forces. The Navy
adopted the process in November 1999. The Office of Naval Research is
responsible for managing the Navy’s S&T budget and for executing the FNCs.
The FNC process was designed to align and partner the requirements, acquisition,
and S&T communities to deliver and transition priority Naval capabilities within
1 to 6 years and also to bridge the gap between the acquisition community and the
Office of Naval Research. At the center of the FNC process, an integrated
product team (IPT) for each FNC brings together key members at the Flag Officer
or Senior Executive Service level from the requirements, acquisition, and S&T
communities.

The Vice Chief of Naval Operations, the Assistant Commandant of the Marine
Corps, and the Assistant Secretary of the Navy for Research, Development, and
Acquisition approved 12 FNCs that concentrate the Navy’s S&T resources on
achieving the highest priority capabilities. Each FNC consists of multiple
projects to develop capabilities. The FNC process formally began in FY 2002.
The Navy funding for advanced technology development in FY 2003 was
$836 million.

Air Force Process. In 1997, the Air Force Research Laboratory (AFRL) was
created through the consolidation of four former Air Force laboratories and the
Air Force Office of Scientific Research. The four laboratories were reorganized
into nine directorates, each with different technology disciplines. The
nine technology directorates are responsible for exploratory technology
development (applied research) and advanced technology development research,
and the Office of Scientific Research is responsible for basic research.
The AFRL Science and Technology Mission Area Strategic Plan for FYs 2002
through 2009 provides a roadmap for the future technologies. The objective of
the S&T program is to provide the technical foundation for the Air Force. In
addition, the AFRL Strategic Plan for FYs 2002 through 2009 established a core
strategic objective to demonstrate and transition technology to useful military
products. To accomplish that objective, AFRL partnered with the Major
Commands to ensure that at least 50 percent of the AFRL advanced technology
development funds are directed towards advanced technology demonstrations
(ATDs) through FY 2009. Another goal of this partnership was to ensure funding
for 75 percent of the ATD transition plans. The Air Force funding for advanced
technology development in FY 2003 was $706 million.




                                    2
Objective
    The objective of this report is to summarize the audits of the Military
    Departments’ processes for transitioning advanced technology development
    projects to military applications and to develop recommendations for the Office of
    the Secretary of Defense to improve the process. See Appendix A for a
    discussion of the audit scope and methodology and prior coverage for the three
    Military Departments’ reports.




                                        3
                    Transitioning of Advanced Technology
                    Development Projects
                    The Military Departments’ research organizations had not fully adopted the
                    best practices suggested by OSD for advanced technology development-
                    funded projects. The performance appraisal process for S&T personnel also
                    did not sufficiently address technology transitioning as a performance
                    element. In addition, the financial guidance on using advanced technology
                    development funds does not emphasize technology transitioning. Those
                    conditions exist because the best practices are advisory and because the
                    Military Departments’ research officials believe that different standards exist
                    among projects funded with advanced technology development resources. As
                    a result, advanced technology development-funded projects were not
                    sufficiently coordinated to ensure that successful technology would transition
                    to the next development or acquisition stage.


Technology Development Guidance
           The Deputy Secretary of Defense issued acquisition guidance on May 12, 2003, that
           requires the Military Departments’ S&T programs to address user needs, maintain a
           broad-based program spanning all Defense-related sciences and technologies to
           anticipate future needs and those not being pursued by civil or commercial
           communities, preserve long-range research, and enable rapid successful transition
           from the S&T base to useful military products.

           The Handbook and Guide (discussed in Appendix B) provide best practices and
           procedures for S&T managers’ consideration in enhancing the likelihood that ATD
           projects will transition to the warfighter. The Handbook practices were endorsed by
           the Deputy Under Secretary of Defense for Acquisition and Technology’s
           Affordability Task Force that was chartered by the Director, Defense Research and
           Engineering. The Guide practices were endorsed by the Deputy Under Secretary of
           Defense for Science and Technology to develop solutions on how to strengthen DoD
           S&T programs for transitioning to the warfighter.

           The Office of the Under Secretary of Defense for Acquisition, Technology, and
           Logistics issued a “Manager’s Guide to Technology Transition in an Evolutionary
           Acquisition Environment,” January 31, 2003, which reemphasized the best practices
           that were endorsed in the Handbook and Guide.


Science and Technology Projects Reviewed
           Advanced Technology Development Projects Reviewed. The Military
           Departments developed their own processes for identifying and managing ATD
           projects.1 The prior audits of the Army, Navy, and Air Force examined 89 projects
1
    Reference to individual Military Department audit reports can be found in Prior Coverage, Appendix A.


                                                        4
           that were funded with advanced technology development funds under the research,
           development, test, and evaluation appropriation. Funding for the 89 projects in
           FY 2003 was $336 million, with an additional $650 million planned for FY 2004
           through FY 2007. The Military Departments planned to complete 75 of the
           89 projects before FY 2007. The following table summarizes the audit results using
           the recommended best practices outlined in the Handbook and the Guide.
           Appendix B describes the best practices. Appendix D provides the details of the
           individual Military Department audit results.

                            Advanced Technology Development-Funded Projects2

                                            Army                      Navy                 Air Force
                                       Projects Percent        Projects Percent        Projects Percent
           IPTs at the
           Project Level

           Team established            13 of 20       65       33 of 37      89        23 of 28      82

           Charter established          7 of 13      54         0 of 33       0         2 of 23       9

           Acquisition program         13 of 27       48       33 of 38      87        23 of 24      96
            manager included

           Acquisition program         12 of 27       44       24 of 28      86        21 of 22      95
            prime contractor
            included

           Planned Technology
           Recipient

           MOU/MOA/TTP/                 5 of 40       13       26 of 39      67        12 of 28      43
            TTA3

           Exit TRLs4 formally         0 of 294       0        12 of 39      31         7 of 29      24
            agreed
           Exit criteria formally       3 of 40       8        22 of 39      56        11 of 29      38
            agreed

           Currently funded by          4 of 26       15         0 of 5       0         5 of 13      38
            acquisition user to
            transition


2
    Each business practice element does not add to 89 because not all elements applied. See Appendix D for
     individual Military Department’s results.
3
    Memorandum of Understanding (MOU), Memorandum of Agreement (MOA), Technology Transition Plan
    (TTP), Technology Transition Agreement (TTA).
4
    Technology Readiness Levels (TRL). At the time of the Army review, the TRL requirement had only recently
     been established. The TRL requirement was established in July 2001.



                                                           5
Project Level Coordination
     The Deputy Secretary of Defense issued acquisition guidance on May 12, 2003,
     which states that IPTs will be used and the teams will include warfighters, users,
     developers, acquirers, technology experts, industry, testers, budgeting officials, and
     system maintainers. To be effective, IPTs must include the acquisition program
     manager(s) and have an established charter that identifies individual roles and
     responsibilities. The prime contractor should also be considered for IPT
     participation, if appropriate, to facilitate the technology integration.

     The establishment of IPTs between the S&T manager and the planned recipient has
     been recognized as a significant contributor to coordination at the Military
     Department level. The table shows that IPTs were established for most of the S&T
     projects and that the IPTs included representatives from the planned technology
     recipient as well as the recipient’s prime contractor. However, we were told that IPTs
     were generally not established for S&T projects in the early phases of advanced
     technology development because those projects were usually associated with
     technologies recognized by the S&T community (referred to as technology push), as
     opposed to projects that focus on satisfying a near-term military need (referred to as
     technology pull). Technology push projects are sponsored by the S&T community
     and are not necessarily recognized by the user as a requirement. The Military
     Departments characterized those S&T projects as early advanced technology
     development-funded efforts that had not been well defined and therefore were not
     ready for coordination with a planned technology recipient. The Handbook
     emphasizes that coordination is a best practice and should begin early in the process
     to ensure that the technology will be properly received and incorporated by the
     planned user.

     The Handbook states that IPT charters provide the best way to minimize team
     misunderstanding. The Handbook does not make a distinction between early or later
     advanced technology development projects and it states that coordination should
     begin even before the technology reaches the advanced development phase. The
     Handbook provides that the charter for each IPT should include:
        •   mission and objectives of the team,

        •   metrics to evaluate the team’s progress,

        •   scope of the team’s responsibility,

        •   relationship of the team with other teams,

        •   authority and accountability of the team,

        •   resources available for the team, and

        •   team membership list.




                                            6
           The Director, Defense Research and Engineering needs to emphasize to the S&T
           community the importance of IPTs and IPT charters for all advanced technology
           development projects to ensure that the organizational agreements are established.


Planned Technology Recipient
           To improve the likelihood of technology transition, the planned technology
           recipients, in many cases acquisition program managers, must make a firm
           commitment to transition the technology to their programs. The commitment should
           include a formal and up-to-date memorandum of agreement or technology transition
           plan between the S&T product manager and the planned technology receiver(s).
           Each memorandum should specify the relationships and responsibilities of the S&T
           product manager and the planned technology receiver(s). The agreement should
           address system requirements, funding, personnel support, exit criteria, and TRLs.

           Formal Agreements. Formal agreements are recognized in the Guide and the
           Handbook as an important element for technology transitioning because they
           establish a “meeting of the minds” between the S&T community and the recipient.
           The table on page 5 shows that formal agreements between the S&T manager and the
           acquisition program manager (or other planned technology recipient) were not being
           established for most of the projects. The formal agreements need to include TRLs
           and exit criteria as a basis for evaluating technological maturity. The inability to
           establish a formal agreement can be an indicator to management that the emerging
           technology may not transition, either because the technology has not been endorsed
           or because the receiving community has not budgeted for the technology. To better
           implement the practices in the Guide and the Handbook, the Director, Defense
           Research and Engineering should issue policy to formalize the requirement for these
           agreements.

                   Technology Readiness Levels. DoD adopted TRLs in response to the
           General Accounting Office Report, “Best Practices: Better Management of
           Technology Development Can Improve Weapon System Outcomes,” issued in
           July 1999. A TRL is an assessment of the technical maturity of an S&T project. The
           TRLs range from one through nine, with more mature S&T projects having a higher
           TRL and therefore a higher expectation of transitioning to an acquisition program.
           See Appendix C for a more detailed description of TRLs. In July 2001, the Deputy
           Under Secretary of Defense for Science and Technology issued a memorandum to the
           Military Departments and Defense agencies that emphasized the development of
           TRLs; however, agreement on TRLs still needs to be stressed. For example, at the
           time of the audits only 19 of 97 recipients had formally agreed to exit TRLs.5 To
           increase the agreement on TRLs, the Director, Defense Research and Engineering
           should issue policy to formalize the requirement for their establishment.

                  Exit Criteria. Exit criteria describe the capabilities, the expected
           performance parameters and conditions of measurement, the range of acceptable
           performance improvements, and the test conditions and verification methods for
           measuring performance. The table on page 5 indicates that S&T managers were not
5
    Although 89 technology projects were reviewed, some technologies had more than one planned recipient.



                                                        7
    successful in establishing exit criteria because formal agreements on exit criteria were
    established for only 36 of the 108 primary recipients (some of the technologies had
    more than 1 primary planned recipient). The Director, Defense Research and
    Engineering should issue policy to require the establishment of exit criteria for
    advanced technology development-funded projects.

    Technology Receiver Funding. The planned technology recipients (usually
    acquisition programs) were not providing the funding required to transition
    technology. As shown in the table on page 5, 32 of the 89 projects reviewed had
    44 acquisition recipients. Of the 44 recipients, only 9 had identifiable funds for
    transitioning technologies for near-term planned transitions. As a requirement for
    continued research expenditure, technology recipients should be required to
    specifically identify transitioning funds, particularly for near-term transitions, to
    ensure that adequate funds are available.


Technology Push
    The S&T community is responsible for providing technology capabilities for known
    military needs and for providing innovative technologies for future military needs.
    Developing innovative technology for future needs not yet recognized by the
    acquisition community is known as technology push. Technology push research is
    usually initiated by the S&T community and provides a military capability or
    counters a threat that the potential user has not yet recognized or acknowledged as a
    potential threat. In response to the Army audit report, officials asserted that
    technology push efforts have led to innovative technology capabilities that otherwise
    would not have been developed. Most technology push projects are early stage
    development efforts and are not characterized as advanced technology demonstrators
    and therefore, S&T officials do not believe technology push projects warrant the
    same level of coordination with the planned recipients as the more mature advanced
    technology demonstration projects.

    The technology push projects represent a significant portion of the Military
    Departments’ advanced technology development in the research, development, test,
    and evaluation appropriation. The Army, Navy, and Air Force identified what they
    considered as technology push. For FY 2003 and FY 2004, the Army reported that it
    had about $151 million (24 percent) and $341 million (41 percent), respectively, of
    advanced technology development funds allocated to technology push research
    (identified in the Army as science and technology objectives). The Navy reported
    that it had approximately $241 million (41 percent) for FY 2003 and $186 million
    (38 percent) identified as technology push projects in the 12 FNCs. The Air Force
    reported approximately $70 million (15 percent) for FY 2003 and $86 million
    (15 percent) for FY 2004 as technology push projects.

    The “Manager’s Guide to Technology Transition in an Evolutionary Acquisition
    Environment,” January 31, 2003, sponsored by the Office of the Under Secretary of
    Defense for Acquisition, Technology and Logistics, states that ATDs should have a
    finite program duration, agreed-upon exit criteria, and transition plans. It was unclear
    when technology push (non-advanced technology demonstration) projects are
    required to be coordinated with planned technology recipients because a clear


                                            8
    distinction between these non-advanced technology demonstrations projects and the
    more advanced development projects had not been established. To improve
    technology transition, the Director, Defense Research and Engineering should issue
    policy to clarify the level of advanced technology development funds that should be
    associated with technology push projects. The policy should provide the S&T
    community guidance as to what extent technology push projects should implement
    best practices to ensure coordination during technology development.


Personnel Performance Assessments
    The Handbook states that one of the keys to successful transitioning is an S&T
    personnel assessment process that is based on technology transitioning, in addition to
    an individual’s technical achievements and published technical papers. Our prior
    audits shown in Appendix A of the Military Departments’ processes showed that the
    performance plans for S&T personnel who are responsible for developing advanced
    technology development-funded projects did not include the performance
    requirements necessary to rate S&T personnel on transition technology efforts. We
    recommended from those audits that the personnel performance plans for officials
    who are responsible for advanced technology development-funded programs should
    explicitly require a supervisor’s assessment of the manager’s performance with
    planned technology users.

    The recommendation in the Handbook should be a requirement for such S&T
    managers. The performance plans for S&T personnel should include an assessment
    regarding the manager’s establishment of project-level IPTs with all planned
    technology users, creation of IPT charters, coordination and acceptance of
    quantitative metrics and key exit criteria with all planned users, development of
    transition plans that are formally agreed to by all planned users, and development and
    maintenance of up-to-date memorandums of agreement or understanding, or
    technology transition plans. Therefore, the Director, Defense Research and Engineer
    should issue policy that requires S&T officials who are responsible for advanced
    technology development projects to have a rating element for technology
    coordination that evaluates the official’s effectiveness in establishing project-level
    IPTs with all planned recipients, in creating IPT charters, in coordinating and
    agreeing upon quantitative metrics and key exit criteria with all planned recipients,
    and in developing and maintaining up-to-date memorandums of agreement or
    technology transitions plans.


Financial Management Regulation
    The DoD Financial Management Regulation, June 2002, defines advanced
    technology development under the research, development, test, and evaluation
    appropriation as efforts that prove technology feasibility and assess subsystem and
    component operability and producibility rather than efforts that develop hardware for
    services. The Financial Management Regulation states that projects funded with
    advanced technology development resources must be directly related to an identified
    military need. The projects demonstrate the general military utility or cost-reduction


                                           9
    potential of the technology when applied to different military equipment or
    techniques. The Financial Management Regulation also states, “. . . projects in this
    category do not necessarily lead to subsequent development or procurement phases.”
    During our individual Military Department audits, an S&T official defended the lack
    of coordination by stating that a definition in the Financial Management Regulation
    allows expenditure of advanced technology development funds on projects that do not
    necessarily lead to subsequent development or procurement. We believe that this
    interpretation is contrary to the goals of advanced technology development.

    To improve technology transitioning, the Under Secretary of Defense (Comptroller)
    definition in the DoD Financial Management Regulation for using advanced
    technology development funds should be modified to emphasize that the goal of
    advanced technology development projects should be to transition during the future
    years defense program (a 6-year period) beginning from the initial year of funding.


Conclusion
    The Guide, Handbook, and the Manager’s Guide provide advice on best practices for
    the S&T community to consider when managing advanced technology development
    projects. The audit results showed that the advisory guidance was partially
    implemented, but that implementation varied based on the maturity of the technology
    and whether the technology was initiated as a technology push effort. In addition, the
    personnel assessment process does not adequately evaluate whether S&T officials
    established a coordination process and whether coordination enhanced the likelihood
    of technology transition. The Director, Defense Research and Engineering needs to
    issue policy that requires adherence to best practices and incorporates the
    implementation of those practices in personnel evaluations.

    The Under Secretary of Defense (Comptroller)/Chief Financial Officer needs to
    revise the DoD Financial Management Regulation definition for using funds for
    advanced technology development under the research, development, test, and
    evaluation appropriation to emphasize the Department’s goal of transitioning
    technology to recipients.


Recommendations, Management Comments, and Audit Response
    1. We recommend that the Director, Defense Research and Engineering issue
    guidance that:

           a. Establishes criteria for advanced technology development-funded
    projects that are developing innovative technology for future needs (technology
    push). The criteria should establish Military Department goals on the
    proportion of advanced technology development funds that should be associated
    with technology push and requirements pull as part of amounts budgeted for
    advanced technology development.




                                          10
       b. Requires the establishment of project-level integrated product teams
and charters for all advanced technology development-funded projects that
include the planned technology recipients and their prime contractors, where
applicable.

        c. Requires the establishment of formal memorandums of agreements
that include technology readiness levels and exit criteria for all advanced
technology development-funded projects, and the identification of the necessary
technology receiver funding.

        d. Requires the Military Department to include a rating element in
science and technology personnel evaluations on the effectiveness of the manager
for advanced technology development-funded projects in establishing project-
level integrated product teams with all planned recipients, creating integrated
product team charters, coordinating and obtaining agreement on quantitative
metrics and key exit criteria with all planned recipients, and developing and
maintaining up-to-date memorandums of agreement or technology transitions
plans.

       e. Requires that advanced technology development-funded projects
should have the goal of transitioning science and technology development into
the acquisition process within the future years defense program.

Management Comments. The Deputy Under Secretary of Defense for Advanced
Systems and Concepts provided comments for the Director, Defense Research and
Engineering. The Deputy Under Secretary stated that the definition of advanced
technology development (budget activity three in the DoD Financial Management
Regulation) is “projects in this category do not necessarily lead to subsequent
development and procurement phases.” This is because S&T projects may not be
technically mature enough for commitment to the next development phase or
procurement. The Deputy Under Secretary stated that the audit’s premise is that
advanced technology development projects should have procurement commitments.
The Deputy Under Secretary stated that advance technology development projects
may still need to be conducted without the commitment to compare and contrast
competing technologies before committing to an acquisition program. Requiring an
acquisition commitment for advanced technology development projects will lead to
fewer systems being evaluated, increased risk, and less optimal solutions. The
Deputy Under Secretary concluded that existing guidance encourages the focus of
technology on the ultimate procurement objectives as soon as possible and; therefore,
the guidance is sufficient to achieve that objective. The Deputy Under Secretary
nonconcurred with the recommendations because they would require the use of
advanced technology development funds (budget activity three) to be redefined.

Audit Response. Management comments provided by the Deputy Under Secretary
of Defense for Advanced Systems and Concepts were nonresponsive to the report and
do not address the recommendations. This report focuses on the management process
for coordinating advanced technology development projects between the S&T
community and the planned acquisition community so that technology projects that
use advanced development funds (budget activity three) have a goal of transitioning
some or all of the emerging technology into the acquisition process in the Future
Years Defense Program. Otherwise these projects should be replaced with more


                                     11
viable candidates. Having a management process that requires goals for technology
transitioning, integrated product teams, memorandums of understanding for
technology development, and funding to transition technology as it matures increases
the likelihood that some or all technology being funded with advanced development
funds will transition to the warfighter for use. In reference to the Deputy Under
Secretary comments that the recommendations would require the use of advanced
technology development funds (budget activity three) to be redefined, the
recommendation to revise the definition to emphasize the goal of transitioning
technology (Recommendation 2. below) was concurred with by the Deputy
Comptroller, Office of the Under Secretary of Defense (Program/Budget).
Accordingly we request that the Deputy Under Secretary of Defense for Advanced
Systems and Concepts provide additional comments on the final report.

2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer revise the DoD Financial Management Regulation definition
for using advanced technology development funds under the research,
development, test, and evaluation appropriation to emphasize that projects
funded with this appropriation should have the goal of transitioning to the
planned technology receiver within the future years defense program.

Management Comments. The Deputy Comptroller, Office of the Under Secretary
of Defense (Program/Budget) concurred with the recommendation.




                                     12
Appendix A. Scope and Methodology
    This report summarizes the results of three audit reports issued from April 2001
    through May 2003 by the Inspector General of the Department of Defense on the
    Military Departments’ transition of advanced technology development projects to
    military applications (see Prior Coverage for a list of the reports). We conducted
    analysis of financial policy and interviewed officials from the Offices of the Under
    Secretary of Defense (Comptroller) and the Director, Defense Research and
    Engineering. We used our analysis and the results of the three previous reports to
    develop our finding, conclusions, and recommendations.

    We performed this audit from June through December 2003 in accordance with
    generally accepted government auditing standards. However, we did not review the
    management control program for this report or perform required steps for determining
    illegal acts because this audit focused on summarizing previous audit results.

    Use of Computer-Processed Data. We did not rely on computer-processed data in
    preparing this summary report. However, we relied on computer-processed data for
    each of the prior reports summarized in this report.

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in DoD. This report provides coverage of the
    Improving DoD Weapon System Acquisition Process high-risk area.


Prior Coverage
    During the last 5 years, the General Accounting Office (GAO) and the Inspector
    General of the Department of Defense (IG DoD) have issued four reports discussing
    technology transitioning. Unrestricted GAO reports can be accessed over the Internet
    at http://www.gao.gov. Unrestricted Inspector General of the Department of Defense
    (IG DoD) reports can be accessed at http://www.dodig.osd.mil/audit/reports.


GAO
    Report No. NSIAD-99-162, “Best Practices: Better Management of Technology
    Development Can Improve Weapon System Outcomes,” July 30, 1999


IG DoD
    IG DoD Report No. D-2003-132, “Air Force Transition of Advanced Technology
    Programs to Military Applications,” September 12, 2003




                                          13
IG DoD Report No. D-2003-053, “Navy Transition of Advanced Technology
Programs to Military Applications,” February 4, 2003

IG DoD Report No. D-2002-107, “Army Transition of Advanced Technology
Programs to Military Applications,” June 14, 2002




                                 14
Appendix B. Advanced Technology Guidance
            Background
   The following paragraphs discuss guidance on best practices issued by various
   proponents to enhance technology transitioning as discussed in this report.

            Addressing Affordability in Defense Science and Technology (S&T): A
   Handbook for S&T Managers. In October 1999, the DoD S&T Affordability Task
   Force issued a Handbook that stresses the importance of early involvement of all
   candidate acquisition programs in advanced technology projects. The Handbook
   states that early involvement of advanced technology candidate acquisition programs
   in research, development, design, test planning, manufacturing, training, logistics,
   financing, and contracting are essential to address key issues that lock in a majority of
   the life-cycle costs of programs. The Handbook states that management tools for
   ensuring effective technology transitioning include establishing integrated product
   teams (IPTs), creating IPT charters, identifying quantitative metrics and key exit
   criteria, and developing a formal transition plan that is officially signed by the
   technology manager and the “customer” (usually an acquisition community member).
   Additional management tools include preparing an approved memorandum of
   agreement that identifies roles and responsibilities of the various participants, and a
   funding strategy that commits the acquisition community to transition the technology.

           Technology Transition for Affordability: A Guide for S&T Program
   Managers. In April 2001, the Deputy Under Secretary of Defense for Science and
   Technology issued a Guide to provide S&T managers with strategies to transition
   technology to the acquisition community. The Guide states that the transition of
   technology should be timely (get the technology in the hands of the warfighter as
   soon as possible) and cost-effective (provide the best technology at the lowest
   possible cost). The Guide states that a key strategy for transitioning technology is
   early coordination between the S&T project manager and the receiving acquisition
   manager to promote a mutual understanding between the two parties.
   The Guide states that IPTs should include the S&T product manager, the S&T
   contractor, the acquisition manager(s) and the respective contractor(s), and test and
   evaluation representatives. It specifies that an IPT should be formed early in the life
   cycle of a technology’s development to address key issues that can greatly affect life-
   cycle cost and the eventual acceptance and implementation of the technology. Issues
   that the IPT should address include defining and agreeing upon quantifiable metrics,
   such as cost, performance, and schedule; exit criteria; and the maturity of the
   technology at transition identified as technology readiness levels (TRLs) (the various
   levels are described in Appendix C). The Guide states that those issues and others
   should be agreed upon in formal documentation such as a memorandum of agreement
   and a technology transition plan.

           Under Secretary of Defense for Acquisition, Technology, and Logistics
   Report to Congress. In June 2001, the Under Secretary of Defense for Acquisition,
   Technology, and Logistics provided a Defense Advanced Research Projects Agency
   report on technology transitioning to congressional defense committees. The report
   provided Congress with the results of a review of the transition of research to the


                                          15
Military Departments from the Defense Advanced Research Projects Agency and
addressed issues that also applied to the transition of research technology to
acquisition program managers and, ultimately, to the warfighter. The report stated
that a key reason for difficult technology transition was the need for collaboration
among three diverse groups: the S&T researcher, the acquisition program manager,
and the military user. Effective transition requires the groups to work together as a
team, which is frequently difficult. In addition, for a technology to transition
successfully, the acquisition program manager’s prime contractor must support the
technology insertion, and the technology must demonstrate a greater return than the
existing capability.

       Manager’s Guide to Technology Transition in an Evolutionary
Acquisition Environment. In January 2003, the Under Secretary of Defense for
Acquisition, Technology, and Logistics reemphasized that the guidance in the
Handbook and Guide was intended to be a source of information to promote
collaboration among team members. It provides an overview of the processes,
communities, programs, and challenges associated with technology transition.




                                      16
Appendix C. Technology Readiness Levels and
            Their Definitions
The Deputy Secretary of Defense issued interim acquisition guidance on October 30, 2002,
which provided a matrix of technology readiness levels and descriptions from a systems
approach for both hardware and software as shown below.

 Technology Readiness Level                                      Description
1. Basic principles observed and      Lowest level of technology readiness. Scientific research begins to
reported.                             be translated into applied research and development. Examples
                                      might include paper studies of a technology’s basic properties.
2. Technology concept and/or          Invention begins. Once basic principles are observed, practical
application formulated.               applications can be invented. The applications are speculative and
                                      there may be no proof or detailed analysis to support the
                                      assumptions. Examples are limited to analytic paper studies.
3. Analytical and experimental        Active research and development is initiated. This includes
critical function and/or              analytical studies and laboratory studies to physically validate
characteristic proof of concept.      analytical predictions of separate elements of the technology.
                                      Examples include components that are not yet integrated or
                                      representative.
4. Component and/or breadboard        Basic technological components are integrated to establish that they
validation in laboratory              will work together. This is relatively “low fidelity” compared to
environment.                          the eventual system. Examples include integration of “ad hoc”
                                      hardware in a laboratory.
5. Component and/or breadboard        Fidelity of breadboard technology increases significantly. The
validation in relevant environment.   basic technological components are integrated with reasonably
                                      realistic supporting elements so it can be tested in simulated
                                      environment. Examples include “high fidelity” laboratory
                                      integration of components.
6. System/subsystem model or          Representative model or prototype system, which is well beyond
prototype demonstration in a          that of TRL 5, is tested in a relevant environment. Represents a
relevant environment.                 major step up in a technology’s demonstrated readiness. Examples
                                      include testing a prototype in a high fidelity laboratory environment
                                      or in a simulated operational environment.
7. System prototype demonstration     Prototype near, or at, planned operational system. Represents a
in an operational environment.        major step up from TRL 6, requiring the demonstration of an actual
                                      system prototype in an operational environment such as an aircraft,
                                      vehicle, or space. Examples include testing the prototype in a test
                                      bed aircraft.
8. Actual system completed and        Technology has been proven to work in its final form and under
qualified through test and            expected conditions. In almost all cases, this TRL represents the
demonstration.                        end of true system development. Examples include developmental
                                      test and evaluation of the system in its intended weapon system to
                                      determine if it meets design specifications.
9. Actual system proven through       Actual application of the technology in its final form and under
successful mission operations.        mission conditions, such as those encountered in operational test
                                      and evaluation. Examples include using the system under
                                      operational mission conditions.




                                                     17
Appendix D. Summary of Audit Results in Prior
            Audits of the Military Departments’
            Advanced Technology Programs

Army
                      Summary of Science and Technology Objectives (STOs) and
                       Advanced Technology Demonstrations (ATDs) Examined
                           (ratio shows positive responses to total examined)
                                             Number of Occurrences              Percent of Occurrences
                                              14 STOs     6 ATDs                 14 STOs 6 ATDs

           IPT at the product level

             Team established                  7 of 14        6 of 6                 50         100
             Charter approved                  3 of 71        4 of 61                43          67
             Acquisition program
              manager included                 9 of 162       4 of 112               56          36
             Acquisition program
              prime contractor
              included                         7 of 163       5 of 113               44          45

           Acquisition
           Program Manager

             MOA/MOU                   3 of 294               2 of 114               10          18
             Exit TRLs formally agreed 0 of 265               0 of 35                 0           0
             Exit criteria formally
              agreed                   1 of 294               2 of 114                 3         18

           Funding by acquisition
            user to transition                 4 of 206       0 of 67                20           0

1
    Charters were established for projects that had IPTs.
2
    S&T projects that established IPTs applied to more than one existing acquisition program.
3
    S&T projects that established IPTs applied to more than one existing acquisition program prime
    contractor.
4
    The 14 STOs and 6 ATDs applied to 29 and 11 existing acquisition programs, respectively.
5
    The two STOs that applied to three acquisition programs and two ATDs that applied to eight existing
    acquisition programs were completed before the requirement for TRLs.
6
    The number of STOs that should have funding was 20 instead of 29 because for 9 STOs funding
    documentation was unavailable, the technology was a manufacturing improvement, or the user had not
    been defined.



                                                       18
Navy
                           Summary of Science and Technology Products and
                         Advanced Technology Demonstrations (ATDs) Examined
                             (ratio shows positive responses to total examined)8

                                              Number of Occurrences            Percent of Occurrences
                                               33 Products9 6 ATDs10            33 Products 6 ATDs
            IPT at the product level

             Team established                   30 of 33        3 of 410              91            75
             Charter established                 0 of 30        0 of 3                 0             0
             Acquisition program
              manager included                  30 of 3511      3 of 3                86          100
             Acquisition program
              prime contractor
              included                          21 of 2512      3 of 3                84          100
            Acquisition
            Program Manager

             MOA/MOU/TTA                        23 of 3511      3 of 4                66            75
             Exit TRLs formally
              agreed                            12 of 35        0 of 4                34              0
             Exit criteria formally
              agreed                            20 of 35        2 of 4                57            50
            Funding by acquisition
             user to transition                   0 of 5        0 of 0                  0




7
    The number of receiving acquisition programs for ATDs that should have had funding was 6 instead of
    11 because Aviation Applied Technology Directorate officials stated that, for five programs, only pieces
    of the Rotocraft Pilots Association technology were to transition.
8
    Draft documents were not considered as a positive response.
9
    Reviewed 33 products: 14 of Knowledge, Superiority and Assurance; 6 of Littoral Antisubmarine
    Warfare; 5 of Organic Mine Countermeasures; and 8 of Fleet Force Protection.
10
     We reviewed six ATDs. Of the six ATDs, four were scheduled for transitions to acquisition programs.
     Two were scheduled for transition to an FNC, but with the same manager. As such, no coordination
     between parties is necessary for these two efforts.
11
     Thirty-three products identified 35 primary acquisition program recipients for the developing
     technologies (1 product in Fleet Force Protection had 2 additional prime recipients identified). Thirty of
     the 33 recipients were included in the working-level IPTs.
12
     Of the 30 acquisition program recipients included in working-level IPTs, 25 had contractors identified.
     Twenty-one of the 25 contractors were participating in the working-level IPTs.



                                                        19
Air Force
                    Summary of Science and Technology Advanced Technology
                  Demonstrations (ATDs) and Critical Experiments (CEs) Examined
                         (ratio shows positive responses to total examined)13

                                             Number of Occurrences           Percent of Occurrences14
                                              24 ATDs     6 CEs                 24 ATDs 6 CEs
            IPT at the product level
             Team established                  19 of 2215      4 of 616              86           67
             Charter established                1 of 19        1of 4                  5           25
             Acquisition program
              manager included                 19 of 2017      4 of 4                95           100
             Acquisition program
              prime contractor
              included                         18 of 1915      3 of 315              95           100
            Acquisition
            Program Manager
             MOA/MOU/TTP18                     11 of 22        1 of 6                50           17
             Exit TRLs formally
              agreed                            7 of 2317      0 of 6                30            0
             Exit criteria formally
              agreed                           10 of 2317      1 of 6                43           17
            Funding by acquisition
             user to transition                    5 of 1319   0 of 019              38




13
     Draft documents were not considered a positive response. Responses deemed “not applicable” were not
     included in the base.
14
 The percentage of occurrences represent the results of projects examined and may not necessarily
 represent the results of all projects in the AFRL advanced technology demonstration funded universe.
15
     Nineteen of the 24 ATDs reviewed had working-level IPTs. The base for the CEs was reduced by one
     because one project did not have an identified acquisition program contractor.
16
     Four of the six CEs had working-level IPTs.
17
     One technology had two identified users, therefore the base was increased by one.
18
     Memorandum of Agreement, Memorandum of Understanding, Technology Transition Plan.
19
     Twelve of the 24 ATDs had near-term transitions dates (one of the ATDs has two recipients, therefore the
     12 is 13). AFRL does not require CEs to have a transition path and therefore the CEs do not have an
     established scheduled to transition.



                                                        20
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Research and Engineering
     Deputy Under Secretary of Defense for Advanced Systems and Concepts
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, Acquisition)
  Chief of Naval Research
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force for Acquisition
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Materiel Command
  Commander, Air Force Research Laboratory
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Under Secretary of Defense (Program/Budget)
Comments




                     23
Under Secretary of Defense for Acquisition,
Technology and Logistics Comments




                       24
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Bruce A. Burton
Roger H. Florence
Rudolf Noordhuizen
Jacqueline N. Pugh




                                   25
